U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 1, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Mohammad Sharif Khalil v. Ur Jaddou, Director, United States
Citizenship and Immigration Service, et al., S.Ct. No. 21-199
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 9,
2021, and placed on the docket on August 11, 2021. The government’s response is due on
September 10, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 12, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0199
KHALIL, MOHAMMAD SHARIF
UR JADDOU, DIRECTOR, UNITED STATES
CITIZENSHIP AND IMMIGRATION SERVICES, ET
AL.

KATHRYN HELEN BRADY
CONSTITUTIONAL LAW CENTER FOR
MUSLIMS IN AMERICA
100 N. CENTRAL EXPY.
SUITE 1010
RICHARDSON, TX 75080
972-914-2507
KBRADY@CLCMA.ORG

